      Department of Homeland Security



      The California Department of Parks and Recreation 

        Did Not Account for or Expend $1.8 Million in 

           FEMA Grant Funds According to Federal 

             Regulations and FEMA Guidelines 





DS-13-05                                          March 2013

                               on"l e l:: OF       (~SPF.CTOR            GENERAL
                                       l)epartmenl of Homeland Security


                                                MAP. 2 7     inn
MEMORANDUM FOR:                        Nan cv Ward
                                       Regional Administrator, Region IX
                                       Federal EmerKe ncy Mana~ent Agency

                                                                                    .~.
FROM :                                 D. Michael Beard                   ' (;;.
                                                                                -!37£:;c-
SUBJECT:                               The Colifornio DepOrtment of Pork$ ond Recreorion Did Not
                                       Account for or Expfmd $1.8 Million in FfMA Gram Funds
                                       According to Federal Regulations and FfMA Guide/ines
                                       (Fina l Report)
                                       FEMA Disaster Numbe r 1628-DR-CA
                                       Audit Report Number D5·13-05

We audited Fede ral Emergency M~nagement Agency {FEMA} Public A ~~islance program
(P A) grant fun ds awarded to the Californ ia Depa rtm ent of Parks an d RecreatlOf"l,
Sacramen to, CA (Departmentl, PA Ide nt ification Numbe r OOo-U8RA6..(1(). Our audit
objective was to determine whether the Dep.1rtment accounted for and expended
FEMA PA grant funds according to Federal r egu la tion~ and FEMAguidelines.

The Cahfo,ma Emerg!'ncy Management Agency (Cal EMA), a fEMA gfantee, awarded
the Department $8,002,596 for costs resulting from ~ere ~torms, flooding, mudslides,
and landslides dur in g t he pe"od from Decembe r 17, 2005, through Ja nuary 3, 2006.'
The award provided 75 percent FE MA funding fo r 38 large proj ects and 17g sma ll
projects! Our audit covered th e period of Dece mbe r 17, 1005, to OCtober 4, 2012. We
aud it ed 10 la rge projects ~n d 2 sma ll projects, with total awarded costs of $2,6g4,804.

Of the 10 large and 1 small proJe<ts we audited, the Department eith er com pleted the
wtIric or deci ded not to pu rsue the prOje(ts under th e FEMA grant program] Depart m!'nt
(~nd Cal EMA) otflCial~ had not submitted ~ final claim as of our October 4, 2012, aud,t
cu toff dMe. Consequently, our audit was based on the Department's charged costs of
$2,£>88,9 19 (see Exhibit).


, At the time 01 thi, d is;»''''. lh~ lV~n'ee's Bime "'liS The Govc-mo". OffKe of Eme'8ency s.erviCH (DES),
\rtI\ich be<~me p~rt 01 C>f EMA on Janua,y 1. 2009.
                                 'h"
'Federli ,eeuIlUon.o in rrlfe<t ~t       time 01 dlWSte-r S<!11h<! .mall proj<'ct th'"""old 01 $51,500.
' Plusf ~ f indine A bclo ....
                                            


                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security




We conducted this performance audit between February and October 2012 pursuant to
the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. We conducted this audit applying the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We interviewed FEMA, Cal EMA, and Department officials; reviewed judgmentally
selected project costs (generally based on dollar value); and performed other
procedures considered necessary to accomplish our objective. We did not assess the
adequacy of the Department’s internal controls applicable to grant activities because it
was not necessary to accomplish our audit objective. We did, however, gain an
understanding of the Department’s method of accounting for disaster-related costs and
its procurement policies and procedures.


                                  RESULTS OF AUDIT

Department officials did not account for or expend $1,252,823 of the $2,688,919 we
audited, according to Federal regulations and FEMA guidelines, and have $527,426 in
unneeded funding that can be deobligated and put to better use (see table 1).

      Table 1. Summary of Questioned Costs and Unneeded Funding by Finding
                                                                  Questioned Unneeded
Finding                          Subject
                                                                    Costs     Funding
   A    Unneeded Funding That Cal EMA Should Deobligate                       $527,426
                       Required Cost Justification
   B                                                              $ 373,331
                   Not Completed for Procurement
                Documents in Support of Project Costs
   C                                                                 353,357
                       Are Missing or Incomplete
   D             Ineligible Bridge Improvement Costs                 301,534
   E    Ineligible Utilities Costs for Facility Not in Active Use    203,151
   F      Emergency Work Costs Outside of Scope of Work               21,450
Totals:                                                           $1,252,823 $527,426




www.oig.dhs.gov                            2                                    DS-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



Finding A: Unneeded Funding That Cal EMA Should Deobligate

The Department has $527,426 in (additional) unneeded funding from four projects, for
which final costs have been accounted, that can be deobligated and put to better use.

In March 2012, we issued an interim report describing that Department officials had
$1,108,425 in unneeded funds for 26 projects for which they decided against completing
with FEMA funds.4 Consequently, per our recommendation, FEMA (and Cal EMA), as
recent as May 2012, has deobligated the unneeded funding for these projects.
Nevertheless, in the period between our last (interim) report and this (final) report, we
identified an additional $527,426 of unneeded funds that can be deobligated and put to
better use (see table 2).

                            Table 2. Unneeded Funding by Project
       Project      Project Award Project Costs Project Completion                   Unneeded
       Number          Amount         Incurred           Date                         Funding
        1703             $341,459       $230,000       05/25/07                       $111,459
        1903              232,555        222,840       08/30/08                          9,715
        3391              354,030         34,478       06/29/09                        319,552
        3481              168,740         82,040       06/30/08                         86,700
       Totals:         $1,096,784       $569,358                                      $527,426

These funds must be put to better use because—

    •	 According to 44 CFR 206.205(b)(1), the grantee (State) shall make an accounting
       to the FEMA Regional Administrator of eligible costs for each large project and
       shall certify that reported costs were incurred in the performance of eligible
       work, that the approved work was completed, that the project was in compliance
       with provisions of the FEMA-State Agreement, and that payments for that
       project have been made in accordance with Federal regulations.

    •	 Federal appropriations laws and the Statement of Federal Financial Accounting
       Standards (SFFAS) require Federal agencies to record obligations in the
       accounting records on a factual and consistent basis throughout the government.5
       The overrecording and the underrecording of obligations are equally improper,
       as both practices make it impossible to determine the precise status of Federal
4
 DS-12-05 (http://www.oig.dhs.gov/assets/GrantReports/OIG_DS-12-05_Mar12.pdf).
5
 Government Accountability Office PrinciplesfoffFederalfAppropriationsfLaw, 3rd Edition, Volume II,
February 2006, Chapter 7, Section B: CriteriafforfRecordingfObligations (31 U.S.C. Section 1501).

www.oig.dhs.gov                                     3	                                         DS-13-05 

                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



        appropriations. When the precise amount is not known at the time that the
        obligation is incurred, agencies appropriately record an obligation based on the
        best estimate at the time. Agencies, however, must periodically adjust that
        obligation as more precise data on the liability become available. That is, the
        agency must increase or decrease obligated funds when probable and
        measurable information becomes known.6 Agencies must document both the
        initial recordings and the adjustments to recorded obligations.

    •	 FEMA officials have noted that deobligating unneeded funding from completed
       projects in a timely manner can improve FEMA’s overall management of a
       disaster and make funding available for other disaster projects.7

Therefore, we question $527,426 in unneeded funding associated with Projects 1703
($111,459), 1903 ($9,715), 3391 ($319,552), and 3481 ($86,700) that should be
deobligated and put to better use.

Department and Cal EMA officials concurred with this finding. FEMA officials stated that
they will withhold comment until after issuance of our report.

Finding B: Required Cost Justification Not Completed for Procurement

Department officials did not comply with four California State procurement requirements
in the solicitation and award of the largest of three contracts, totaling $373,331, for
Project 2404, to replace a destroyed beach access ramp (see table 3).8 As a result, FEMA
and Cal EMA had no assurance that the Department paid a reasonable price.

The Department is a State entity and officials must therefore comply with the same
policies and procedures used for procurements for its non-Federal funds (44 CFR
13.36(a)). This exempted Department officials from compliance with particular Federal
criteria. For example, Department officials were not required to and did not solicit
competitive bids or proposals because the Department contracted with a public agency
(Sonoma County Probation Camp) to perform the work, which is allowable under State
contracting rules (California State Contract Manual (CSCM) 5.08.A.4). However, State

6
  Principles of Federal Appropriations Law, 3rd Edition, Volume II, Chapter 7, Section B: Criteriafforf
RecordingfObligationsf(31 U.S.C. Section 1501), February 2006; and Office of Management and Budget
StatementfoffFederalfFinancialfAccountingfStandards, Number 5, paragraphs 19 and 29, September 1995.
7
  For example, see DS-09-05 (http://www.oig.dhs.gov/assets/GrantReports/OIG_DS-09-05_May09.pdf).
8
  Three contracts, totaling $380,131, were awarded and claimed for Project 2404. We determined that
only the largest contract, a construction contract for $373,331, was noncompliant with applicable
procurement criteria. Costs associated with the other two (professional services) contracts were accepted.

www.oig.dhs.gov                                     4	                                          DS-13-05 

                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



contracting rules also stipulate that when contracting with another public agency, the
awarding agency must complete a contract cost justification—and address the
appropriateness or reasonableness of the contract—when not competitively bidding a
contract (CSCM 5.70.D). Despite our requests, Department officials could not provide us
with the justification.

                 Table 3. Key State Procurement Violations: Project 2404
                          (California State Contract Manual 5.70)
     Detailedfcostf       Detailedfcostf
                                                                    Explainedfwhyf
    informationfinf      informationfforf     Detailedfspecialf
                                                                     thefawardingf
  sufficientfdetailftof similarfservicesf     factorsfaffectingf                        Total
                                                                   agencyfbelievesf
  supportfandfjustifyf (andfexplainedf         thefcostfunderf                        Questioned
                                                                     thefcostsfaref
    thefcostfoffthef      differences,fiff      thefcontract?                            Cost
                                                                     appropriate?
       contract?           applicable)?      (CSCM 5.70.D.4)
                                                                   (CSCM 5.70.D.5)
   (CSCM 5.70.D.2)      (CSCM 5.70.D.3)
     Not Provided         Not Provided         Not Provided         Not Provided      $373,331

Consequently, the Department could not justify the appropriateness or reasonableness
of the contract costs for which they are requesting FEMA reimbursement. Therefore,
we question the total contract cost of $373,331 for Project 2404 based on the
Department’s noncompliance with mandatory procurement requirements.

Department officials did not concur with our finding, stating that they assumed that the
mandatory cost justification—which could not be located within their files—was
completed because a California Department of General Services’ (DGS) approval stamp
was affixed to the contract. However, the Department could not provide criteria that
stipulate that the DGS stamp denotes compliance with all applicable procurement
requirements.

Cal EMA and FEMA officials deferred comment until issuance of our final report. FEMA,
however, has historically told us that the PA program allows them to determine
reasonable contract costs and reimburse for eligible work, irrespective of compliance
with procurement requirements.

We caution FEMA officials from relying on undocumented reasonableness assertions in
determining the eligibility of costs incurred through the use of improper procurement
practices—most particularly when the procurement is not used to mitigate safety and
security risks to lives and property. Federal criteria stipulate that in determining cost
reasonableness, consideration should be given to requirements imposed, such as laws


www.oig.dhs.gov                                   5                                       DS-13-05 

                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



and regulations that are conditions of the Federal award.9 As we have previously
reported, contracting practices that do not comply with applicable procurement
regulations result in high-risk contracts that may cost taxpayers significant amounts of
excessive costs.10 Therefore, it is our position that—as the Office of Management and
Budget (OMB) has stipulated—exceptions should only be allowed on a case-by-case
basis, and only in unusual circumstances.11 Because FEMA’s mission revolves around
emergency management, the provision of disaster assistance for non-life-threatening
situations is not considered an unusual circumstance.

Finding C: Documents in Support of Project Costs Are Missing or Incomplete

Department officials improperly charged $353,357 in various costs to Projects 218, 1903,
and 3481 that they could not support with sufficient documentation (see tables 4 and 5).

                            Table 4. Unsupported Costs by Project
          Project         Total Project   Supported       Unsupported/Questioned
          Number            Charges         Costs                 Costs
            218              $240,806          $76,080                  $164,726
           1903                222,840          86,192                   136,648
           3481                  82,040         30,057                    51,983
          Totals:            $545,686         $192,329                  $353,357

Federal regulations and FEMA guidelines predicates eligibility on sufficient documentary
support. Specifically—

     •	 Eligibility to receive Federal funds is contingent upon having fiscal controls and
        accounting procedures that permit the tracing of funds sufficiently to establish
        that they were not used in violation of any legal restrictions, and maintaining
        records to adequately identify the source and application of funds provided for
        financially-assisted activities. (44 CFR 13.20(a)(2) and (b)(2))

9
  2 CFR Part 225, Appendix A, C.2.

10
   OIG-12-74 (April 2012) (http://www.oig.dhs.gov/assets/mgmt/2012/oig_12-74_apr12.pdf). 

11
   Under certain conditions, Federal regulations allow agencies to grant exceptions to Federal 

administrative requirements for grants (44 CFR Part 13, sections 13.6(b) and (c)). However, OMB allows 

these exceptions only on a case-by-case basis (44 CFR 13.6(c)). Only OMB may authorize exceptions for 

classes of grants or grantees (44 CFR 13.6(b)). Further, OMB regulatory guidance (OMB Circular A-110) 

entitled UniformfAdministrativefRequirementsfforfGrantsfandfAgreements withfInstitutionsfoffHigherf

Education,fHospitals,fandfOtherfNon-ProfitfOrganizationsfincludes similar provisions, but adds, 

“exceptions from the requirements of this part shall be permitted only in unusual circumstances” (2 CFR 

215.4). 


www.oig.dhs.gov                                     6	                                          DS-13-05 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security




   •	 Costs must be adequately documented to be allowable under a Federal award.
      (2 CFR Part 225; Appendix A; Section C.1.j)

   •	 It is critical that the applicant establish and maintain accurate records of events
      and expenditures related to disaster recovery work. The importance of
      maintaining a complete and accurate set of records for each project cannot be
      overemphasized. Good documentation facilitates the project formulation,
      validation, approval, and funding processes. (FEMA Public Assistance Guide,
      FEMA 322, October 1999. p. 113)

       o	 The information required for documentation describes the “who, what,
          when, where, why, and how much,” for each item of disaster recovery work.

       o	 The applicant should have a financial and recordkeeping system that it can
          use to track these elements.

       o	 All of the documentation pertaining to a project should be filed with the
          corresponding project and maintained by the applicant as the permanent
          record of the project.

       o	 These records become the basis for verification of the accuracy of project
          cost estimates during validation of small projects, reconciliation of costs for
          large projects, and audits.

Department officials did not comply with these criteria because the following projects
did not have complete documentation (i.e., timesheets, invoices) to support project costs:

                              Table 5: Unsupported Costs
  Missing and/or Incomplete
                                 Project 218     Project 1903   Project 3481     Totals
        Documentation
     Force Account Labor           $111,229         $ 47,833                   $159,062
   Force Account Materials           53,497            3,731                     57,228
  Force Account Equipment                             17,890                     17,890
       Contracted Work                                67,194        $51,983     119,177
            Totals:                $164,726         $136,648        $51,983    $353,357




www.oig.dhs.gov                             7	                                    DS-13-05 

                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



Therefore, we question a total of $353,357 charged to Projects 218 ($164,726), 1903
($136,648), and 3481 ($51,983) as unsupported, because of insufficient documentation
to support these costs.

Department officials generally concurred with this finding, and stated that they would
thoroughly review—and revise, if applicable—the documentation before submitting a
final claim to FEMA. Cal EMA and FEMA officials stated that they will withhold comment
until after issuance of our report.

Finding D: Ineligible Bridge Improvement Costs

Department officials charged $301,534 in ineligible costs to Project 3480 when they
elected to upgrade and replace a destroyed wooden bridge with a steel bridge and did
not limit their charges to the FEMA-estimated cost for restoring the bridge to its
predisaster condition (without the improvement), as required. This occurred because
Department officials—in coordination with Cal EMA and FEMA officials—did not obtain
an improved project designation, which would have signaled to all relevant stakeholders
that the Federal funding for the (improved) project would be limited to the Federal
share of the approved estimate of eligible costs.12 Federal regulations and FEMA
guidelines stipulate that—

     •	 Improvements can be performed while still restoring the predisaster function of
        a damaged facility, but the grantee’s approval must be obtained. Federal
        funding for the improved project is limited to the Federal share of the approved
        estimate of eligible costs. (44 Code of Federal Regulations (CFR) 206.203(d)(1))

     •	 The costs of restoring damaged facilities are eligible for public assistance funding,
        but only on the basis of the facility’s predisaster design. (44 CFR 206.201(h); and
        FEMA Public Assistance Policy Digest, FEMA 321, October 2001, p. 89)

Department officials did not comply with these criteria.

The predisaster bridge was constructed of wood and required an estimated $410,576
for replacement. However, Department officials charged $712,110 to install a steel
bridge, a $301,534 difference from the original estimate. We therefore question the
$301,534 difference in costs charged to Project 3480 as ineligible because Department


12
  There was no indication that Hazard Mitigation or FEMA’s 50fPercentfRule was considered or applied for
this project.

www.oig.dhs.gov                                    8	                                         DS-13-05 

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



officials did not limit their charges to the estimated cost for restoring the bridge to its
predisaster condition (without the improvement).

Department and Cal EMA officials did not concur with this finding. Although the steel
bridge cost 70 percent more than the FEMA authorized amount, Department officials
stated that the steel bridge was more cost effective than the wooden bridge and would
have less affect on the stream bed. FEMA officials withheld comment until after
issuance of our report.

Finding E: Ineligible Utilities Costs for Facility Not in Active Use

Department officials improperly charged $203,151 to Project 3073 to replace utility
components (e.g., sewer, electrical, water) of a facility that was not in activefuse at the
time of the disaster. Federal regulations at 44 CFR 206.226(k)(2) stipulate that facilities
that were not in active use at the time of the disaster are eligible for Federal disaster
assistance only when—

   •	 The facilities were temporarily inoperative for repairs or remodeling;

   •	 Active use by the applicant was firmly established in an approved budget; or

   •	 The owner can demonstrate to FEMA’s satisfaction intent to begin use within a
      reasonable time.

Department officials did not meet these criteria. Department records indicated that the
facility, and therefore its components, was not in active use at the time of the disaster,
nor were there any future plans for its use. Therefore, we question $203,151 in
ineligible charges for Project 3073 related to a facility that was not in active use at the
time of the disaster.

Department officials concurred that the facility was not in active use at the time of the
disaster and therefore did not charge the project with costs to repair/replace the facility
itself. However, they said that they believed that FEMA would reimburse the
Department for damages to the facility’s utilities (e.g., sewer, electrical, water),
regardless of the active use status of the facility at the time of the disaster. Cal EMA and
FEMA officials stated that they will withhold comment until after issuance of our report.




www.oig.dhs.gov                               9	                                     DS-13-05 

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Finding F: Emergency Work Costs Outside of Scope of Work

Department officials charged a total of $21,450 in ineligible project costs—emergency
work charged to permanent repair projects—that were not part of the FEMA-approved
scope of work (see table 6).


                        Table 6: Ineligible Project Costs by Project
                    Work Performed Was           Emergency Work Was
   Project                                                                 Questioned
                   Included in the FEMA-            Segregated From
   Number                                                                    Costs
                  Approved Scope of Work? Permanent Project Work?
    3481                     No                            No                  $11,450
    3488                     No                            No                   10,000
    Total:                                                                     $21,450

Federal regulations and FEMA guidelines regarding scope of work eligibility and
documentation stipulate that—

   •	 Eligibility to receive Federal funds is contingent upon having fiscal controls and
      accounting procedures that permit the tracing of funds sufficiently to establish
      that they were not used in violation of any legal restrictions, and maintaining
      records to adequately identify the source and application of funds provided for
      financially assisted activities. (44 CFR 13.20(a)(2) and (b)(2))

   •	 Costs must be adequately documented to be allowable under a Federal award.
      (2 CFR Part 225, Appendix A, Section C.1.j)

   •	 Work must be required as a direct result of the declared disaster and (only
      those) costs that can be directly tied to the performance of eligible work are
      eligible. FEMA will not provide funds for costs that are outside the approved
      scope of work. (FEMA Public Assistance Guide, FEMA 322, October 1999, pp. 23,
      33, and 71–73; and FEMA Public Assistance Applicant Handbook, FEMA 323,
      September 1999, pp. 17, 21–22, 32, and 52)

   •	 Emergency work (Categories A and B) generally should not be combined with
      permanent work (Categories C through G) unless the emergency work is
      incidental to the permanent repair, and regardless, FEMA eligibility criteria will
      still be applied as is appropriate to the type of work/costs performed. (FEMA’s
      Applicant Handbook, FEMA 323, September 1999, p. 16)


www.oig.dhs.gov                            10 	                                   DS-13-05 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Department officials did not comply with these criteria when they charged—

   •	 $11,450 in ineligible costs to Project 3481 for debris removal activities that were
      not part of the eligible scope of work related to the permanent repair of trails.

   •	 $10,000 in ineligible costs to Project 3488 for emergency sandbagging and
      stabilization measures that were not part of the eligible scope of work related to
      the permanent repair of a dam and spillway.

Therefore, we question a total of $21,450 in ineligible project costs charged to
Project 3481 ($11,450) and 3488 ($10,000) that were outside of the FEMA-approved
scope of work.

Department officials concurred with this finding and noted that (1) $11,450 was charged
to Project 3481 in error, and (2) $10,000 in ineligible charges were mistakenly charged
to Project 3488 rather than the two small projects (Projects 1329 and 3507) to which
they rightfully belonged. Cal EMA and FEMA officials stated that they will withhold
comment until issuance of our report.


                                 RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IX:

Recommendation #1: Deobligate $527,426 ($395,570 Federal share) in unneeded funds
associated with 1703 ($111,459), 1903 ($9,715), 3391 ($319,552), and 3481 ($86,700)
and timely put such funds to better use (finding A).

Recommendation #2: Disallow the total contract cost of $373,331 ($279,998 Federal
share) for Project 2404 as ineligible based on the Department officials’ noncompliance
with mandatory procurement requirements unless FEMA grants the Department an
exception for all or part of the costs (finding B).

Recommendation #3: Disallow a total of $353,357 ($265,018 Federal share) charged to
Projects 218 ($164,726), 1903 ($136,648), and 3481 ($51,983) as unsupported because
of insufficient documentation, unless Department officials can provide adequate
documentation to support these costs (finding C).




www.oig.dhs.gov                            11 	                                  DS-13-05 

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



Recommendation #4: Disallow $301,534 ($226,151 Federal share) in ineligible costs
charged to Project 3480 because Department officials did not limit their charges to the
FEMA-estimated cost for restoring the bridge to its predisaster condition, as required
(finding D).

Recommendation #5: Disallow $203,151 ($152,363 Federal share) in ineligible charges
for Project 3073 as a result of Department officials’ noncompliance with applicable
criteria related to a facility that was not in activefuse at the time of the disaster (finding E).

Recommendation #6: Disallow a total of $21,450 ($16,088 Federal share) in ineligible
project costs charged to Project 3481 ($11,450) and 3488 ($10,000) that were outside of
the FEMA-approved scope of work (finding F).


                DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with the Department during our audit and included
those comments in this report, as appropriate. We provided written summaries of our
findings and recommendations in advance to FEMA, Cal EMA, and Department officials,
and discussed them at an exit conference held on August 16, 2012, with Cal EMA and
Department officials.f FEMA officials stated that they will withhold comment until after
issuance of our report.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Humberto Melara, Western Regional Office
Director; Devin Polster, Supervisory Analyst; Jack Lankford, Audit Manager; and Willard
Stark, Auditor.



www.oig.dhs.gov                                12                                        DS-13-05 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Please call me with any questions, or your staff may contact me at (202) 254-4100 or
Humberto Melara at (510) 637-1463.




www.oig.dhs.gov                           13                                   DS-13-05 

                                             OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security




                                                                                                                                       EXHIBIT

                                                Schedule of Projects Audited 

                                           December 17, 2005, to October 4, 2012 

                                       California Department of Parks and Recreation 

                                             FEMA Disaster Number 1628-DR-CA 


                                                    Schedule of Projects Audited and Questioned Costs
                                                                                                  Questioned Costs
                                        Unneeded
                                                                             Documents in                           Ineligible     Emergency
                                       Funding That      Required Cost                            Ineligible
              Project                                                           Support of                       Utilities Costs   Work Costs
                             Project     Cal EMA        Justification Not                           Bridge
Project        Award                                                          Project Costs                        for Facility    Outside of
                             Charges      Should         Completed for                         Improvement                                         Total
              Amount                                                         Are Missing or                      Not in Active      Scope of
                                        Deobligate        Procurement                               Costs
                                                                               Incomplete                              Use            Work
                                        (Finding A)        (Finding B)                           (Finding D)
                                                                                (Finding C)                        (Finding E)     (Finding F)
  105         $418,320     $418,320
  218           161,640      240,806                                              $164,726                                                       $ 164,726
 1703           341,459      230,000      $111,459
 1903           232,555      222,840         9,715                                  136,648                                                        136,648
2222*            37,064       35,014
 2404           127,399      380,131                          $373,331                                                                             373,331
 3073           214,591      141,770                                                                                   $203,151                    203,151
 3391           354,030       34,478        319,552
 3480           460,716      712,110                                                                 $301,534                                      301,534
 3481           168,740       82,040         86,700                                  51,983                                           $11,450       63,433
 3488           137,284      167,146                                                                                                   10,000       10,000
3761*            31,006       24,264
Totals:      $2,684,804   $2,688,919      $527,426            $373,331            $353,357           $301,534          $203,151       $21,450    $1,252,823


          * Small Project





          www.oig.dhs.gov                                                  14                                                          DS-13-05 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



                                                               APPENDIX


                                   Report Distribution

Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison
Acting Chief Privacy Officer

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Deputy Associate Chief Counsel
Attorney
Director, Risk Management and Compliance
Chief Procurement Officer
Audit Liaison (Job Code G-11-058)
Director, Recovery Division, Region IX
Deputy Director, Recovery Division, Region IX
Audit Liaison, Region IX
Audit Followup Coordinator

Grantee (California Emergency Management Agency)

Secretary
Executive Assistant to the Secretary
Chief of Staff
Audit Liaison

State (California)

California State Auditor, Bureau of State Audits



www.oig.dhs.gov                             15                  DS-13-05 

                       OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security



Subgrantee (California Department of Parks and Recreation)

Secretary, California Natural Resources Agency
Director, California Department of Parks and Recreation
Deputy Director, Park Operations
Special Programs Manager, Facilities Management Division

Congressional Oversight and Appropriations Committees, as appropriate, including:

Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner




www.oig.dhs.gov                          16                                 DS-13-05 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
